     DEPARTMENT OF HEALTH & HUMAN SERVICES                          Office of Inspector General

                                                                    Office of Audit Services, Region V
                                                                    233 North Michigan Avenue
                                                                    Suite 1360
                                                                    Chicago, IL 60601



August 17, 2010

Report Number: A-05-09-00022

Mr. Cal Ludeman
Commissioner
Minnesota Department of Human Services
P.O. Box 64998
St. Paul, MN 55164-0998

Dear Mr. Ludeman:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Minnesota’s Reporting Fund Recoveries for
Federal and State Programs on the CMS-64 for the Period October 1, 2005, Through December
31, 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833 ext. 21 or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-09-00022 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Cal Ludeman


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




 REVIEW OF MINNESOTA’S REPORTING
FUND RECOVERIES FOR FEDERAL AND
STATE PROGRAMS ON THE CMS-64 FOR
   THE PERIOD OCTOBER 1, 2005,
   THROUGH DECEMBER 31, 2008



                         Daniel R. Levinson
                          Inspector General

                            August 2010
                           A-05-09-00022
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In Minnesota, the Minnesota Department of Human Services (State agency) provides oversight
for Minnesota’s Medicaid program, known as Medical Assistance, for compliance with Federal
requirements and the State’s counties administer the program. The State agency uses a statewide
surveillance and utilization control program to safeguard against unnecessary or inappropriate
use of Medicaid services and excess payments. The State agency, through the Surveillance and
Integrity Review (SIRs) unit, conducted audits of Medicaid providers. When SIRs identified
overpayments, they sent letters on behalf of the State agency to the providers that (1) identified
the overpayment amounts and (2) informed providers of their payment options.

Section 1903(d)(2) of the Act, requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State agency to refund
the Federal share of an overpayment to a provider at the end of the 60-day period following the
date of discovery, whether or not the State agency has recovered the overpayment. The date of
discovery for situations other than fraud or abuse is the date that a provider was first notified in
writing of an overpayment and the specified dollar amount subject to recovery (42 CFR
§ 433.316(c)). Federal regulations (42 CFR § 433.304) define an overpayment as “ . . . the
amount paid by a Medicaid agency to a provider in excess of the amount that is allowable for the
services furnished under section 1902 of the Act and which is required to be refunded under
section 1903 of the Act.” Because the “Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program,” Form CMS-64 (CMS-64), is due on a quarterly basis, the CMS
State Medicaid Manual requires the Federal share of the overpayments be reported no later than
the quarter in which the 60-day period ends.

OBJECTIVE

Our objective was to determine whether Medicaid overpayments identified by the State agency
were reported on the CMS-64 in accordance with Federal requirements.

SUMMARY OF FINDINGS

The State agency did not report all Medicaid overpayments on the CMS-64 in accordance with
Federal requirements. For the period October 1, 2005, through December 31, 2008, the State
agency did not report Medicaid overpayments totaling $57,837 ($28,922 Federal share) in
accordance with Federal requirements.

                                                 i
Of the 109 overpayments we reviewed, 104 were reported, but 5 were only partially reported on
the CMS-64. In addition, the State agency did not report 26 of the 109 overpayments in our
sample within the 60-day time requirement.

The State agency did not report Medicaid overpayments from SIR audits at the correct Federal
Medical Assistance Percentages (FMAP). The State agency reported Medicaid overpayments
totaling $1,501,068 at the incorrect FMAP rate, which resulted in a $21,961 understatement of
the Federal share.

The State agency did not properly report these overpayments because it had not developed and
implemented internal controls to ensure that it correctly reported overpayments on the CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $57,837 on the CMS-64 and refund
       $28,922 to the Federal Government,

   •   refund $21,961 in Federal share that was reported incorrectly for Medicaid overpayments
       claimed on the CMS-64, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency agreed with our recommendations to
refund $28,922 related to unreported overpayments and to develop and implement internal
controls to correctly report and refund the Federal share of identified overpayments. However,
the State agency disagreed with our recommendation to refund $21,961 in Federal share reported
using an incorrect FMAP rate because these overpayments did not relate to a specific period.
According to the State agency, the current FMAP rate should be used to report the Federal share
of the overpayment when a specific period for the overpayment cannot be identified. The State
agency acknowledged that some overpayments may have been reported at different FMAPs than
the applicable FMAP at the time the expenditure occurred. However, the State agency said the
practice of using the FMAP when the State identified the overpayment is consistent with the
State Medicaid Manual Section 2500.6 subsection B. The State agency’s comments are included
in their entirety as the appendix.

We continue to recommend the State agency refund $21,961 to the Federal Government because
the State agency or providers identified specific periods for the reported overpayments. Pursuant
to the State Medicaid Manual Section 2500(D)(2), the State agency is required to use the FMAP
rate in effect at the time of the overpayment when an overpayment is identified for a specific
period.

                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Federal Requirements for Medicaid Overpayments ............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          OVERPAYMENTS NOT REPORTED ..........................................................................4

          OVERPAYMENTS REPORTED USING AN INCORRECT FMAP RATE………….4

          OVERPAYMENTS NOT REPORTED TIMELY ..........................................................5

          POTENTIALLY HIGHER INTEREST EXPENSE........................................................5

          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................5

          RECOMMENDATIONS .................................................................................................6

          OTHER MATTERS.........................................................................................................6

          STATE AGENCY COMMENTS AND
          OFFICE OF INSPECTOR GENRAL RESPONSE.........................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64).

In Minnesota, the Minnesota Department of Human Services (State agency) provides oversight
for Minnesota’s Medicaid program, known as Medical Assistance, for compliance with Federal
requirements. The State agency’s county human services offices administer the program. The
State Medicaid agency implements a statewide surveillance and utilization control program to
safeguard against unnecessary or inappropriate use of Medicaid services and excess payments.
The State agency, through the Surveillance and Integrity Review (SIRs) unit, conducted
surveillance and utilization review audits of Medicaid providers. When SIR identified
overpayments, they sent letters on behalf of the State agency to the providers that (1) identified
the overpayment amounts and (2) informed providers of their payment options.

Federal Requirements for Medicaid Overpayments

The Federal government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary to recover the
amount of a Medicaid overpayment. Federal regulations (42 CFR § 433.304) define an
overpayment as “…the amount paid by a Medicaid agency to a provider in excess of the amount
that is allowable for services furnished under section 1902 of the Act and which is required to be
refunded under section 1903 of the Act.” A State has 60 days from the discovery of a Medicaid
overpayment to a provider to recover or attempt to recover the overpayment before the Federal
share of the overpayment must be refunded to CMS. Section 1903(d)(2) of the Act, as amended
by the Consolidated Omnibus Budget Reconciliation Act of 1985, and Federal regulations at
42 CFR part 433, subpart F, require a State to refund the Federal share of overpayments at the
end of the 60-day period following discovery whether or not the State has recovered the
overpayment from the provider. 1 Pursuant to 42 CFR § 433.316(c), an overpayment that is not a
result of fraud or abuse is discovered on the earliest date:

1
  Section 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require the State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.

                                                         1
   (1) … on which any Medicaid agency official or other State official first notifies a provider
   in writing of an overpayment and specifies a dollar amount that is subject to recovery; (2) …
   on which a provider initially acknowledges a specific overpaid amount in writing to the
   medicaid agency; or (3) …. on which any State official or fiscal agent of the State initiates a
   formal action to recoup a specific overpaid amount from a provider without having first
   notified the provider in writing.

In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its quarterly Form CMS-64. Provider overpayments must be
credited on the CMS-64 submitted for the quarter in which the 60-day period following
discovery ends.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments identified by the State agency
were reported on the CMS-64 in accordance with Federal requirements.

Scope

Our review covered Medicaid provider overpayments identified in overpayment letters issued to
providers during the period of October 1, 2005, through September 30, 2008 and that should
have been reported on the CMS-64 during the period of October 1, 2005, through December 31,
2008. We reviewed 109 overpayments totaling $5,691,155. The identified overpayment letters
represent overpayments of $10,000 or more for Medicaid services that were subject to the 60-day
rule.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments.

We performed fieldwork at the State agency offices in St. Paul, Minnesota from December 2008
through March 2010.

Methodology

To accomplish our audit objective, we:

   •    reviewed Federal laws, regulations, and other requirements governing Medicaid
        overpayments;

   •    interviewed State agency officials regarding policies and procedures relating to Medicaid
        overpayments subject to the 60-day rule and reporting overpayments on the CMS-64;


                                                2
    •   identified 834 overpayments for Medicaid services subject to the 60-day rule, which
        totaled $6,765,593;

    •   selected a judgmental sample of 109 overpayments that were identified by the SIRs unit
        between October 1, 2005 and September 30, 2008 and the original overpayment
        identified was greater than or equal to $10,000;

    •   established the dates of discovery using the dates that SIRs notified Medicaid providers
        in writing, on behalf of the State agency, of the overpayments and the dollar amount
        subject to recovery;

    •   determined the quarter in which the 60-day period following discovery of the
        overpayment ended;

    •   reviewed the CMS-64 to determine whether the Medicaid overpayments were reported
        for the quarter in which the 60-day period following discovery ended;

    •   reviewed the CMS-64 to determine whether Medicaid overpayments were reported
        during any subsequent quarter through June 30, 2009;

    •   determined whether overpayments were processed directly through the Medicaid
        Management Information System and included on other lines of the CMS-64; 2

    •   determined if providers selected as part of our sample were bankrupt or out of business;

    •   computed the potentially higher interest expense to the Federal Government resulting
        from overpayments and income not reported within the required timeframe using the
        number of days between required reporting dates and the State fiscal year ending June 30,
        2009. 3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency did not report all Medicaid overpayments on the CMS-64 in accordance with
Federal requirements. For the period October 1, 2005, through December 31, 2008, the State


2
  The State agency traced the claims history for some sample items in verifying overpayments that were recovered
through the system.
3
 We calculated the interest expense using the applicable interest rates pursuant to the Cash Management
Improvement Act of 1990, P.L. No. 101-453.

                                                        3
agency did not report Medicaid overpayments totaling $57,837 ($28,922 Federal share) in
accordance with Federal requirements.

Of the 109 overpayments we reviewed, 104 were reported, but 5 were only partially reported on
the CMS-64. In addition, 26 of the 109 overpayments in our sample were not reported within the
60-day time requirement.

The State agency did not report Medicaid overpayments from SIR audits at the correct Federal
Medical Assistance Percentages (FMAP). The State agency reported Medicaid overpayments
totaling $1,501,068 at the incorrect FMAP rate, which resulted in a $21,961 understatement of
the Federal share.

The State agency did not properly report these overpayments because it had not developed and
implemented internal controls to ensure that overpayments were reported correctly on the CMS-
64.

Because the overpayments were not properly reported on the CMS-64, the Federal Government
may have incurred increased interest expense of $27,821

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “. . . must refund the Federal share of
overpayments at the end of the 60-day period following discovery . . . whether or not the State
has recovered the overpayment from the provider.” The regulation provides an exception only
when the State is unable to recover the overpayment amount because the provider is bankrupt or
out of business (42 CFR § 433.318).

Pursuant to 42 CFR § 433.320(c)(1), a downward adjustment is: “. . . is allowed only if it is
properly based on the approved State plan, Federal law and regulations governing Medicaid, and
the appeals resolution processes specified in State administrative policies and procedures.” In
addition, the Departmental Appeals Board (DAB) has determined that the burden is on the state
to establish why it no longer regards its initial audit determinations as reliable (e.g. California
Department of Health Services, DAB No. 1240 (1991)).

For the period October 1, 2005, through December 31, 2008, the State agency did not report
Medicaid overpayments totaling $57,837 ($28,922 Federal share) in accordance with Federal
requirements. Of the 109 Medicaid overpayments reviewed, 5 overpayments totaling $57,837
($28,922 Federal share) were partially reported on the CMS-64 due to unexplained downward
adjustments or unsupported collections.

OVERPAYMENTS REPORTED USING AN INCORRECT FMAP RATE

Pursuant to the State Medicaid Manual Section 2500.6(B), the State agency “Include refunds
from overpaid Medicaid providers or recipients. . . Upon receipt of such funds, determine the
date or period of the expenditure for which the refund is made to establish the FMAP (Federal

                                                 4
Medical Assistance Percentages) at which the original expenditure was matched by the Federal
government. Make refunds of the Federal share at the FMAP for which you were reimbursed.”

The State agency did not report Medicaid overpayments from SIR audits at the correct Federal
Medical Assistance Percentages (FMAP). The State agency reports Medicaid overpayments at
the current quarter FMAP rate, rather than the FMAP rate current at the time the claim was
submitted on the CMS-64. As a result, the State agency reported Medicaid overpayments
totaling $1,501,068 at the incorrect FMAP rate, which resulted in the understatement of the
Federal share totaling $21,961.

OVERPAYMENTS NOT REPORTED TIMELY

Pursuant to 42 CFR § 433.312(a)(2), the State agency “. . . must refund the Federal share of
overpayments at the end of the 60-day period following discovery . . . whether or not the State
has recovered the overpayment from the provider.” In addition, Federal regulation (42 CFR §
433.316(c)) defines the date of discovery as the date that a provider was first notified in writing
of an overpayment and the specified dollar amount subject to recovery. These regulations do not
allow for extending the date.

The State agency did not report all Medicaid provider overpayments in accordance with the 60-
day requirement. The State agency reported all 109 overpayments on the CMS-64, which
includes 5 overpayments that were only partially reported. However, 26 of the 109
overpayments, totaling $2,059,291 ($1,031,830 Federal share), were not reported on the CMS-64
at the end of the 60-day period. The untimely reporting resulted from using the date of the final
decision or the date that the State agency collected the overpayment rather than the date of
discovery.

POTENTIALLY HIGHER INTEREST EXPENSE

Because the State agency did not report some overpayments completely and was not timely in
reporting others, the Federal Government did not have the use of these funds. As a result, the
Federal Government potentially incurred an increased interest expense of $27,821. However, we
did not include this Federal interest expense in the amount of overpayments we recommend that
the State agency refund.

INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not develop and implement internal controls to ensure that it correctly
reported on the CMS-64 the Medicaid overpayments identified from the State’s SIRs unit.




                                                 5
RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $57,837 on the CMS-64 and refund
       $28,922 to the Federal Government,

   •   refund $21,961 in Federal share that was reported incorrectly for Medicaid overpayments
       claimed on the CMS-64, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

                                     OTHER MATTERS

The State agency did not report Medicaid overpayments from the SIRs unit on the correct line of
the CMS-64 as stated in the CMS State Medicaid Manual. Of the 109 sampled overpayments
that were reported on the CMS-64, 57 were reported incorrectly.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency agreed with our recommendations to
refund $28,922 related to unreported overpayments and to develop and implement internal
controls to correctly report and refund the Federal share of identified overpayments. However,
the State agency disagreed with our recommendation to refund $21,961 in Federal share reported
using an incorrect FMAP rate because these overpayments did not relate to a specific period.
According to the State agency, the current FMAP rate should be used to report the Federal share
of the overpayment when a specific period for the overpayment cannot be identified. The State
agency acknowledged that some overpayments may have been reported at different FMAPs than
the applicable FMAP at the time the expenditure occurred. However, the State agency said the
practice of using the FMAP when the State identified the overpayment is consistent with the
State Medicaid Manual Section 2500.6 subsection B. The State agency’s comments are included
in their entirety as the appendix.

We continue to recommend the State agency refund $21,961 to the Federal Government because
the State agency or providers identified specific periods for the reported overpayments. Pursuant
to the State Medicaid Manual Section 2500(D)(2), the State agency is required to use the FMAP
rate in effect at the time of the overpayment when an overpayment is identified for a specific
period.




                                                6
APPENDIX
                                                                                                      Page 1 of3

                          APPENDIX: STATE AGENCY COMMENTS



Minnesota Department of Human Services - - - - - - - - - - - - ­


July 8, 2010

James C. Cox
Regional Inspector General for Audit Services
Office of Audit Services, Region V
233 North Michigan Avenue, Suite 1360
Chicago, IL 60601

Re: 	   Review of Minnesota's Reporting Fund Recoveries for Federal and State Programs on the
        CMS-64 for the Period October 1, 2005 through December 31, 2008

        Audit Report Number: A05-09-00022

Dear Mr. Cox:

Thank you for the opportunity to review and comment on your report covering CMS-64 for the period of
October 1,2005 through December 31,2008, which encompassed the review of over 2000 cases. It is
our understanding that our response will be published in the Office of the Inspector General's final audit
report. The report contained the following recommendations:

                                                  Recommendation # 1

Include unreported Medicaid overpayments of$57,837 on the CMS-64 and refund $28,922 to the
Federal Government.

Department comments:

The Department agrees with the recommendation.

                                                  Recommendation #2

Refund $21,921 in Federal share that was reported incorrectly for Medicaid overpayments claimed on
the CMS-64.

Department comments:

The Department agrees some overpayments may have been reported at a different Federal Medical
Assistance Percentages (FMAP) than the applicable FMAP at the time the expenditure occurred. The
Department's practice has been to report the overpayment amounts at the applicable FMAP for the
quarter in which they are identified. Provider overpayments often span several months or years, and
may not be capable of being directly tied to individual claims (random sampling and extrapolation to a


                PO Box 64998 ' St. Paul, J\4N· 55/64-0998 • An Equal Opportullity and Veteran.jrielldly Emp/uyer
                                                                                                 Page 2 of3

James C. Cox
July 8, 2010
Page 2

universe of claims, for example). This is done regardless ofwhether our FMAP is higher or lower than
the applicable FMAP at the time the expenditure occurred. This is also consistent with the cash basis
reporting used on the expenditure side of the CMS-64. Lastly, the investment in time and effort required
to attempt to track the original payment date of each claim to. the applicable FMAP is not cost-effective
given the small differences that would result from such efforts.

We also note that the draft report cites section 2500.6, subsection B ofthe State Medical Manual, but
ellipses an important sentence. The entire subsection provides:
       B. Return ofthe Federal Share of Recoveries and Collections. --Fonn HCFA.,.64 also shows
       the Federal share of recoveries from any source of expenditures claimed in prior quarters.

       Include refunds from overpaid Medicaid providers or recipients, cancelled, uncashed or voided
       checks and vouchers (see 42 CFR 433.40), or settlements from liable third parties such as private
       insurance and casualty related court settlements.

       Upon receipt of such funds, detennine the date or period of the expenditure for which the refund
       is made to establish the FMAP at which the original expenditure was matched by the FederaI
       government. Make refunds of the Federal share at the FMAP for which you were reimbursed.
       When recoveries cannot be related to a specific period, compute the Federal share at the FMAP
       rate in effect at the time the refund was received. (Emphasis added). Make adjustments to prior
       periods in subsequent HCF A-64 fonns to reflect the correct FMAP rate.
This paragraph requires that recoveries that can be related to a specific payment should be adjusted on
subsequent CMS-64s, and allows for the circumstance in which a recovery cannot be related back to a
specific payment. In that case, the correct FMAP rate is the rate in effect at the time the refund is
received.


                                             Recommendation #3

Develop and implement internal controls to correctly report and refund the federal share of identified
Medicaid overpayments on the CMS-64.


Department comments:

The Depaltment agrees to review the internal controls surrounding Medicaid overpayments reported on
the CMS~64. The Department will conduct a review our operational procedures and update and/or
modify them so that the case file documentation is adequate to support changes in recovered amounts.




                       PO Box 64998· St. Paul. ,"IN· 55164-0998· An Equal Opportunity Employer
                                                                                                Page 3 of3

James C. Cox 

July 8,2010 

Page 3


The Department of Human Services will continue to evaluate the progress being made to resolve all
audit findings until full resolution has occurred. If you have any further questions, please contact David
Ehrhardt, Internal Audit Director, at (651) 431-3619.

Sincerely,


a;f.~
Cal R. Ludeman 

Commissioner 


Cc: Lynn Barker, HHS OIG




                        PO Box 64998' St. Paul, MN' 55164·0998' An Equal Opportunity Employer
